                                                NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A11090060                                                                        Page 1 of 1


        We received two allegations that two panelists (Subject 11 and Subject 22) may have
        violated NSF's conflict of interests (COl) rules by reviewing proposals with which
        they had a COl with the PI. NSF pro~ides panel reviewers with examples of
        affiliations that it asks them to disclose for consideration of potential COis before
        reviewing proposals by Pis or co-Pis with those same affiliations. NSF provides
        prospective panelists with an oral briefing and a written COl form, which panelists
        are asked to review and sign.
        Both subjects participated as reviewers of proposals submitted by Pis at a time
        when they were serving on a journal's editorial board with that PI (Subject 1
        reviewed proposals A and B submitted by PI -1 while both were affiliated with
        journal 1,3 and Subject 2 reviewed proposal C submitted by PI-2' while both were
        affiliated with journal 2). 4 Neither subject disclosed to NSF an affiliation with the
        journal, the PI, or any potential COl with the proposals. We wrote to the subjects (
        and asked about the non-disclosures. Subject 1 explained her affiliation with the
        journal and that she didn't work with PI -1 on any articles. She provided a
        definition of co-editing and concluded that, by this definition, she did not have a
        COl with PI-1. She also noted how difficult it would be to keep track of all her co-
        editors. Subject 2 apologized for the failure to disclose, but explained that he had
        never worked with PI-2 in any editorial capacity.
        We asked the NSF Program Officers (POl and P02) who handled these proposals
        for an assessment of Subject l's and Subject 2's reviews, and both stated there was
        no evidence of bias in the reviews. We concluded the subjects should have disclosed
        their affiliation to NSF, but given the subjects' indirect affiliations with the
        respective Pis, together with their neutral reviews, we closed this case. However,
        the subjects expressed some misconceptions about the review process, disclosures,
        and the determination of COis, so we wrote clarification letters to each explaining
        that they if they simply disclose their affiliations to NSF, NSF would determine if
        any COis existed.



            1 [redacted].

            z [redacted].                                                               ·
            3 [redacted] was the PI of [redacted] (proposal A) and [redacted] (proposal B). Subject 1 and PI-1
         were both on the editorial board of journall: [redacted].
            4 [redacted] was the PI of [redacted] (proposal C). Subject 2 and PI-2 were both on the editorial

         board of journal 2: [redacted].



NSF OIG Form 2 (ll/02)
